<html>
<title> - THE ISIS THREAT: WEIGHING THE OBAMA ADMINISTRATION'S RESPONSE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     THE ISIS THREAT: WEIGHING THE OBAMA ADMINISTRATION'S RESPONSE

=======================================================================



                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2014

                               __________

                           Serial No. 113-219

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
89-814                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida    
LUKE MESSER, Indiana--resigned 5/
    20/14 noon deg.
SEAN DUFFY, Wisconsin--
    added 5/29/14 
CURT CLAWSON, Florida--
    added 7/9/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable John F. Kerry, Secretary of State, U.S. Department 
  of State.......................................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John F. Kerry: Prepared statement..................     9

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    47
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    48
Written responses from the Honorable John F. Kerry to questions 
  submitted for the record by the Honorable Alan S. Lowenthal, a 
  Representative in Congress from the State of California........    50


     THE ISIS THREAT: WEIGHING THE OBAMA ADMINISTRATION'S RESPONSE

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11:34 a.m. in 
room 2171, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    This morning we welcome Secretary Kerry back to the 
committee to weigh the administration's response to the ISIL 
threat, and a threat it is.
    Never has a terrorist organization occupied such a 
sanctuary. Never has such a terrorist organization had the 
access to the abundant natural resources that ISIL has at its 
disposal. Never has a terrorist organization possessed the 
heavy weaponry or the cash or the personnel that ISIL has 
today. And its brutality, of course, is unmatched.
    This committee, on a bipartisan basis, has been pushing the 
administration to confront this threat. For months I pressed 
the administration for drone strikes, as the terrorists columns 
advanced on Iraqi cities. That is what the Iraqis wanted, and 
it is what many in our Embassy in Baghdad wanted. Ranking 
Member Engel has been pushing to arm the Free Syrian Army. That 
is what the President's entire national security team wanted, 
including General David Petraeus, who headed the CIA at the 
time and frankly, the White House hesitancy on this has put us 
in a situation where ISIL has gained a lot of ground.
    But where we are today is we, I think agree on the steps 
that will turn the tables, turn the table on ISIL. Pushing 
Maliki to the side to give Iraqis a chance at representative 
government is one of the issues of Secretary of State has 
worked on. Aid to our allies from the air and I should say here 
we saw 116,000 air strikes during the opening days of the first 
Gulf War, when Kuwait was occupied.
    We need a robust response from the air, giving the Kurdish 
Peshmerga and many Iraqi units the backing they need to 
confront ISIL and using other elements against this wretched 
terrorist group. Not just the Free Syrian Army, but we recall 
the Sunni Awakening, when they rose up against al-Qaeda, and 
the fact that that strategy worked against al-Qaeda, it can 
work against ISIL.
    We have here an organization on the ground, a jihadist 
group that frankly has carried out massacres of Christians, 
Yazidis, Shia, Sunnis, beheading two American journalists, 
enslaving minority women, turning them into concubines, 
frankly, a jihadist group that demands the international 
community come together to suppress and defeat it.
    And it is good that we have finally acknowledged that we do 
have a partner on the ground in Aleppo, Syria, just not one 
that is adequately trained and adequately supplied to take on 
the formidable ISIL and Hezbollah-backed regime in Damascus. 
But ISIL has to be attacked in Syria. It has to be attacked in 
Syria because the sanctuary, the base of operations, base of 
training is on the Syrian side of that border, and to defeat a 
terrorist group you have got to go after their sanctuary. And 
as we hit them from the air, there has to be engagement of the 
ISIL forces on the ground that are already attacking Aleppo. 
Yesterday's House vote was a first step, and we trust that you 
will be in close touch with the committee, Mr. Secretary, as 
you get this training program off the ground. So it is us in 
the air, it is the local Kurdish and Arab units providing the 
combat troops on the ground, maintaining the momentum against 
ISIS to defeat it.
    And the administration is right to get as many others in 
the region and from around the world to step up. This isn't 
just our fight. The Secretary is just returning from a trip to 
the region, and has been talking with other Nations, some who 
will contribute cash, others intelligence or military support. 
But we would like to hear more about the pledges of support. 
Just who will be bringing what to the table? How firm is their 
resolve? And while we are aware of the plight of those Turkish 
diplomats that are being held captive, the bottom line still is 
that Turkey is a NATO ally, and it is not pulling its weight. 
And that has to change.
    Of course not all in the region will play a constructive 
role. Qatar comes to mind. And the committee certainly doesn't 
see Iran's regime doing anything other than what it has done 
for the last 30 years, bringing destruction to the region 
through their machinations.
    We look forward to meeting with General Allen, who you just 
appointed, Mr. Secretary, as the Special Envoy for the global 
coalition to counter ISIL, to discuss these and other issues.
    The ISIL threat is a dramatic wakeup call. While some claim 
that the threats to the United States were receding, the 
reality is that a tidal wave of militancy is cresting here. 
Unfortunately, a lot of the recruitment occurs through the 
Internet.
    And the good news is that the President has now 
acknowledged that this threat must be confronted. We must have 
a sustained commitment that only the Commander in Chief can 
marshal. This hearing will be one of many to evaluate the 
administration's resolve and strategy to defeat this threat.
    And I will now turn to our ranking member, Mr. Elliott 
Engel, of New York, for his opening comments.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Mr. Chairman, the decisions we now face are decisions of 
life and death. The course we set in the next several weeks and 
months will have ramifications around the world for years to 
come. And this situation demands that we set party politics 
aside.
    Mr. Chairman, we are grateful, as always, for your even, 
bipartisan leadership, and I want to identify myself with your 
remarks.
    Mr. Secretary, thank you for coming before us today, and 
thank you for your decades of tireless service to our country, 
for your work during uncertain and dangerous times.
    Congratulations to you and the administration for asking 
for a vote and winning the vote in the House yesterday to aid 
and train Syrian rebels. But Mr. Secretary, in my view the step 
the House took yesterday was long overdue. Over 1\1/2\ years 
ago I introduced the Free Syria Act, which would have armed and 
trained vetted members of the opposition at that point. We 
can't know what would have happened if we had acted then, but 
we do know that since then tens of thousands of men, women, and 
children have lost their lives, millions have been driven from 
their homes, and ISIS has grown and spilled across the Iraqi 
border, leaving behind a trail of destruction and bloodshed.
    Now that we are on the verge of training and equipping 
moderate Syrians, this must be considered only a first step to 
address a far-reaching threat. A vast stretch of land in Syria 
and Iraq is now in the crushing grip of ISIS. Left to fester, 
ISIS terrorists would rule the cradle of civilization with a 
brand of barbarism out of history's darkest chapters, and offer 
safe haven to those who share their hateful and false ideology.
    Whether ISIS or al-Qaeda, Hamas or Hezbollah, terrorists 
thrive in ungoverned spaces and spread their lies and hatred. 
We have seen this before. In Afghanistan, after the Russians 
were driven out with American help, the Taliban planted their 
flag, and al-Qaeda found a safe place to plan attacks against 
our country, including September 11, 2001, against my city. 
Make no mistake, if we don't act it will happen again. So today 
I hope we can explore the way we move forward from here. There 
are a few points I think are especially important.
    First, building a credible international coalition. It is 
critical that our partners in the region play a leading role 
combating ISIS. But the entire international community has a 
stake in this effort. Thousands of foreign fighters from dozens 
of countries have poured into Syria to join ISIS. And these 
battle-hardened extremists could launch attacks when they 
return home. I look forward to hearing about your progress with 
leaders in the Middle East and Europe in addressing the foreign 
fighter issue, and building an international coalition to 
degrade and destroy ISIS.
    Secondly, how do we address all aspects of the conflict? 
The border between Syria and Iraq is gone. We are now dealing 
with a single theater. I believe Congress has a responsibility 
to consider a new AUMF, authorization for the use of military 
force, that is specifically tailored to the current situation.
    Next, how do we ensure that our support of the moderate 
Syrian opposition isn't just limited to combating ISIS? The 
Assad regime continues to torture and murder its own citizens. 
We cannot lose sight of the fact that Assad must go. He is a 
magnet for extremists and foreign fighters and this crisis will 
not end as long as he remains in power. I believe that this 
train and equip program is the best chance we have to bring 
about a negotiated political solution in Syria. Empowering the 
moderate opposition is the only way to compel Assad to the 
negotiating table.
    Make no mistake, there is no military solution to this 
crisis. How can we shape an environment that is conducive to 
bringing the parties to the table and moving toward a 
negotiated solution? Mr. Secretary, you know better than 
anybody we are out of good choices. There are no good choices 
in Iraq and Syria. No one in this country or this Congress 
wants to be dragged into another open-ended war. But I fear 
now, of all the bad choices, the worst choice would be to do 
nothing. That is why I am glad that the House did the right 
thing yesterday in the vote.
    As the President said last week, we will hunt down 
terrorists who threaten our country wherever they are. We need 
to do this, and we need to do it right.
    So I thank you again, Mr. Chairman.
    And Mr. Secretary, I look forward to your testimony.
    Chairman Royce. And, Mr. Secretary, welcome back.
    All of the members here are pleased to be joined by Mr. 
John Kerry, 68th Secretary of State of the United States. And 
without objection, I will add that the witness's full prepared 
statement will be part of the record.
    Members here will have 5 calendar days to submit any 
statements or questions or extraneous material that they want 
to put in the record.
    Chairman Royce. Mr. Secretary.

 STATEMENT OF THE HONORABLE JOHN F. KERRY, SECRETARY OF STATE, 
                    U.S. DEPARTMENT OF STATE

    Secretary Kerry. Well thank you very much, Chairman Royce, 
Ranking Member Engel, all the members of the committee. It is 
my privilege to be here today. I am glad to have this 
opportunity.
    Let me begin by both congratulating you and thanking you 
for the vote that took place yesterday. We are enormously 
appreciative, because stepping up the efforts with respect to 
the moderate opposition is an essential piece of any strategy 
against ISIL. And I will go into that a little bit in a moment.
    I know the chairman knows I have a hard stop on this 
because I have to be at the White House for a meeting with 
President Poroshenko. So I will try to really abbreviate, and I 
will try to keep my answers short. But I also want to make sure 
I answer your questions sufficiently.
    You know, for more than 10 years Iraq has been a source of 
debate and some disagreement, obviously, up on the Hill, and in 
the country. I think we waste time today if we focus on 
rehashing past debates when the issue that confronts us is 
really straightforward and one on which we ought to all agree. 
ISIL has to be defeated, plain and simple, end of story. Has to 
be. And collectively, I think every single one of us is going 
to be measured by what we do in order to guarantee that that 
happens.
    And the same is true on the international level. Even in a 
region that has been virtually defined by division over these 
past years, leaders who couldn't find any agreement for 11 
years, and who agree on very little in general, are all in 
agreement that ISIL has to be defeated.
    We have been focused on ISIL, I will tell you, since it 
morphed into al-Qaeda in Iraq in 2013 and picked up AQI's 
mission under a different banner. And obviously, prior to that 
we were focused on it in the full context of what we were doing 
with respect to al-Qaeda.
    In January, we ramped up our assistance to the Iraqi 
Security Forces, increasing our intelligence, surveillance, 
reconnaissance, ISR, and flights, to get a better picture of 
the battlefield and in order to expedite weapons like the 
Hellfire missiles for the Iraqis so that they could bring those 
to bear in the fight. Early this summer the ISIL threat 
accelerated when it effectively obliterated the Iraq-Syria 
border and the Mosul dam fell.
    And there are complicated reasons for why that happened. It 
is not just a straightforward, you know, they ran over them 
deal. It has to do with the kind of army that Prime Minister 
Maliki began to create. It has to do with Shia and Sunni. It 
has to do with a lot of other ingredients.
    But as a result of that, we further surged our ISR missions 
immediately over Iraq. We immediately set up joint operation 
centers in Baghdad and Irbil. And our Special Forces 
immediately conducted a very detailed assessment of the Iraqi 
Security Forces, because we needed to know, in order to be able 
to answer your questions and the questions of the American 
people, what might we be getting into here? Do we have an Iraqi 
Army that is capable of fighting? To what degree? What will it 
take to reconstitute it? So whatever judgments are coming to 
you now are coming to you as a consequence of that assessment.
    And in addition to that, I am proud to say that thanks to 
American engagement, ISIL's movement, which was rapid at that 
point in time, and perilous, was stopped. Together with the 
Peshmerga and the brave, courageous souls, the Kurds who stood 
up, we were able not only to stop them there, but to liberate 
Amerli, which had been under siege, to liberate Sinjar 
Mountain, to begin to bring our efforts to bear on Haditha dam, 
and to make a difference.
    By the time ISIL had launched its offensive in the north, 
President Obama began air strikes, to begin with on the 
humanitarian basis to protect American personnel and prevent 
major catastrophes, such as the fall of Haditha dam or the 
maintenance of the Mosul dam, and also to bolster the Iraqi 
Security Forces and the Kurdish forces.
    To date, we have launched more than 150 air strikes. I know 
that sounds like that is very few compared to the 16,000 that 
was mentioned earlier. But it is a different deal right now, 
because I believe we rightfully, absolutely needed to get in 
place a structured, clear, Iraqi-chosen, Iraqi effort that 
provided a government with which we could work going forward. 
If you didn't have a government with which you could work going 
forward, nothing that we tried to do would have had the impact 
necessary.
    So, you know, the platforms we put in place last June have 
enabled us to be able to do what we have done now and there is 
absolute clarity to the fact that we have blunted ISIL's 
momentum, created the time and space to be able to put together 
a comprehensive strategy, get the inclusive government, and 
build the broad coalition. And that is the way we ought to go 
at this.
    We have redoubled our efforts to move the Iraqi political 
process forward. We are clear-eyed about the fact that any 
strategy against ISIL is only going to succeed if it has this 
strong and inclusive government in Iraq. I hope you noticed the 
photograph on the front page of the Wall Street Journal 2 days 
ago that showed Prince Saud al-Faisal, the foreign minister of 
Saudi Arabia, arm in arm with the Kurdish President of Iraq and 
with the Shia foreign minister of Iraq. They all came together 
in Jeddah.
    And that is why I went to Baghdad last week, to meet with 
this new Iraqi Government and make certain of what they were 
willing to do and were committing to us, and encourage them to 
discuss in detail their commitment against ISIL, and especially 
their commitment to unify the country and do the things that 
haven't been done for these 8 years or more.
    What happened in Jeddah was literally historic in terms of 
the recent history of Iraq and the conflicts of that region. 
Iraq is now no longer isolated from its neighbors. Last week, 
the Iraqis weren't just invited to come to Jeddah, but they 
were warmly received by the Saudis and by the rest of the 
countries there and the Saudis announced in that meeting that 
they will reopen an Embassy in Baghdad. That is a big deal. And 
it is essential.
    President Obama outlined the broader strategy in detail the 
other day. I am not going to go through it all. But I just 
quickly highlight it because it is important to continually 
remember this is not just an American effort, number one. And 
number two, it is not just military, not just kinetic even 
within the military. It is critical that, you know, we all 
understand how complicated it is precisely because we are not 
just focused on taking out the enemy out on the battlefield, 
but we have to take out an entire network.
    I don't know how many of you saw it, but the Australians 
today arrested a large group of people that they suspected of 
being ISIL members, supporters, sympathizers in Australia who 
were planning some kind of extravaganza of brutality in 
Australia. So we have to decimate and discredit a militant cult 
masquerading as a religious movement and claiming, with no 
legitimacy whatsoever, to be a state.
    And there are similarities to what we have been doing with 
al-Qaeda these last years, but frankly it is different for some 
of the reasons that Chairman Royce pointed out. These folks 
have now taken over territory in ways that al-Qaeda never did. 
They have access to money in ways that al-Qaeda never did. They 
have access to weapons that they captured from Iraqis. And they 
are holding that territory and beginning to try to build a 
capacity for sustainability that challenges everybody.
    So certainly military support is going to be one component 
of this. And I sit here today, while I can't go into all of the 
details at this particular moment for a lot of obvious reasons, 
I am here to tell you that we have people in Europe committed 
to being part of kinetic effort, outside of Europe and other 
parts of the world committed, and in the region, Arab 
commitments to be part of this effort.
    In Syria, the on the ground combat will be done by the 
moderate opposition, which is Syria's best counterweight to 
extremists like ISIL. And we can talk more about that moderate 
opposition, what it looks like, who it is, what they are 
capable of today, what they could be doing as we go forward.
    In addition to the military campaign, we obviously need to 
dry up the illicit funding sources for al-Qaeda. We have to 
stop the foreign fighters, people with passports from some of 
your States, people who could return here with experience in 
fighting in Syria, or Iraq, and come back and engage in 
activities here. And the evidence of that is not in my saying 
it. A fighter who was in Syria traversed back through Turkey 
and other places, came back to Europe, a French sympathizer, 
went to Brussels and shot four people outside of a synagogue in 
Brussels.
    So I emphasize that when we say in addition there is 
another major step, and that will be to continue to deliver 
humanitarian assistance and to make a difference for the people 
on the ground so that they don't get sucked in by the money 
that an ISIL can spend or even pay them. In addition, we have a 
major effort to undertake to repudiate the insulting distortion 
of Islam that ISIL is spreading.
    I was very encouraged to hear yesterday that Saudi Arabia's 
top clerical entity, 21 clerics, unanimously came out and 
declared again that terrorism is a heinous crime under sharia 
law. More importantly, declared that ISIL has nothing to do 
with Islam, and that it is in fact the order of Satan. And this 
is vital, because we know that preventing any individual from 
joining ISIL, from getting to the battlefield in the first 
place is actually the most effective measure that we can take.
    The top, the grand mufti of Saudi Arabia last week said 
that ISIL is the number one enemy of Islam. And it might serve 
us all well to focus on it not in a name that gives it a state, 
but to focus on it as the enemy of Islam. That is why I spent 
the last days in Europe and in the Middle East building this 
coalition, together with other countries.
    And that is why I will be in New York tomorrow at the U.N. 
Security Council at a session that is aimed to build up this 
coalition even more, and to get even more specific about 
commitments from each country as to what they are going to do. 
We have more than 50 countries now contributing in one way or 
another, with specific understanding of what those countries 
will do. Some will provide ammunition, some will help with the 
delegitimizing, some will engage in definancing, some will 
engage in military assistance, some in training and assistance, 
some in kinetic activities.
    In addition, in New York with me tomorrow will be General 
John Allen. I think many of you know him. Command in 
Afghanistan for 2 years, 2011-2013, and deputy commander of 
Anbar in Iraq and great experience in the region, great respect 
in the region. Knowledge of the Sunni tribes, of all the folks 
there that are part of the mix to be able to mobilize action. 
And he can help us match up each country's capabilities with 
the needs of the coalition.
    And that is another reason why we can't lay it all out to 
you today because in the Pentagon, as well as in our intel 
community, as well as the White House, we are marrying all of 
the needs with the particular coalition contributors.
    Ambassador Brett McGurk, as well as Assistant Secretary 
Anne Patterson, who is so much of a part of the effort against 
al-Qaeda in Pakistan, are also leading the team. And I commit 
to you that we will continue to build and enhance the coalition 
well beyond UNGA.
    So with that, I look forward to your questions, and I hope 
we can get through as much as possible.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Kerry follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. And I think that does bring up a good 
question, Mr. Secretary, which is how we move forward to get a 
large portion of this paid for by Saudi Arabia, by Kuwait.
    I remember in 1990, when the invasion of Kuwait occurred, 
in order to push that army, which at the time was the fifth 
largest army in the world, the Iraqi Army, in order to push it 
out of Kuwait there was a coalition and there were 116,000 air 
strikes that decimated 42 divisions. Frankly, the tanks, 3,700 
were destroyed, the armored vehicles were destroyed. We saw the 
value of air power in pushing back a force. And to date I think 
we have less than 200 air strikes. So that is one point I would 
bring up with you.
    Another point I would bring up just goes to the question of 
what we can do with respect to those passports you spoke of, 
French, Belgian, British, Australian. These are individuals who 
would be able to travel to the United States without a visa. I 
know that we have the authority here in the United States, 
State Department can revoke a passport if someone is likely to 
cause serious damage to the national security of the United 
States. But we frankly need some kind of interagency process I 
think to identify westerners that travel to fight alongside 
ISIL. And I wanted to speak to you about that issue as well. I 
have been working on legislation to address this.
    We should have a carve out, of course, for Doctors Without 
Borders, and the doctors group SAMS, and other groups that are 
going to try to help with respect to setting up hospitals in 
refugee camps. But in terms of those going to fight, I think we 
need a way to approach this to make certain that their ability 
to come back into the United States is made a hell of a lot 
more difficult than it is right now.
    And I want to ask you, Mr. Secretary, about that.
    Secretary Kerry. Yes, sir. Chairman Royce, let me just say 
very quickly it is just not the time to begin comparing the 
number of air strikes, because the number of air strikes that 
took place, obviously then, was related to an invasion, a full-
scale invasion. This is not an invasion. This is a 
counterterrorism operation. And it is going to be different, 
number one.
    Number two, if we had engaged in just jumping in and 
leaping in and doing air strikes one place or another without 
the structure, without the forethought or the proper targeting 
and so forth and something went awry, we would be up here, and 
every single one of you would be looking at us and asking us 
why we shot before we aimed and did our homework.
    Chairman Royce. But Mr. Secretary, with all due respect on 
that point, our ability now with armed drones and with F-16s to 
be able to see a target from the air----
    Secretary Kerry. I agree.
    Chairman Royce [continuing]. We could actually see from the 
planes the fact that they were flying this black flag, they 
were in long columns. We didn't know what was happening here. 
They took Fallujah, you know, they took Tikrit, they eventually 
took Mosul, and in every one of these situations we had an 
opportunity to hit those columns from the air.
    Secretary Kerry. Mr. Chairman, you are absolutely correct. 
And I will tell you I was chomping at the bit and agonizing 
over that watching these convoys. And you would see them on CNN 
and say why aren't we doing this?
    But in point of fact, when we stopped and thought through 
the strategy, if we had begun to do that and did it in full 
swing, we might have actually interrupted, if not prevented, 
the capacity of the Iraqi Government to have a new government 
and new formation. And there were serious considerations there 
about the timing and----
    Chairman Royce. And I acknowledge that point, but at the 
same time, by the time this got to Mosul, and we are talking 
now about the central bank in Mosul, we had reached a point 
where the ability to take that city and take the cash out of 
the central bank would arm this terrorist organization to an 
extent that no terrorist organization previously had their 
hands on that much cash.
    Secretary Kerry. That is why we are building the coalition, 
Chairman, because they have to buy those weapons from 
somewhere. That cash has got to go out to another country, it 
has to go out through a system. Somehow those weapons have got 
to get in there. And if we do this effectively enough, and that 
is where all countries can play a role, shutting their borders, 
enforcing the law, engaging in intel cooperation, and 
preventing that money from being effective if you can't spend 
it effectively out of the country. Now, that is one.
    Two, with respect to passports, you are absolutely correct, 
I have the authority to revoke passports. And we are currently 
examining all of the people, the individuals. We are trying to 
learn as well as we can who is there and what those 
possibilities are. We also need to do that with sensitivity to 
certain investigations that may be going on because you don't 
want to flag something.
    Chairman Royce. I understand.
    Secretary Kerry. But we are well aware. That is part of the 
strategy and part of the process. And what I want to make 
certain is that anybody who has a passport who returns, returns 
in handcuffs, not through Customs with their passport. And that 
is our goal. Finally----
    Chairman Royce. My time has expired. Finally, you can 
finish, Mr. Secretary.
    Secretary Kerry. No, no, that is fine.
    Chairman Royce. My only point here was we have to step it 
up from the air.
    Let's go to Mr. Elliott Engel from New York.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Secretary, there have been several falsehoods and 
misrepresentations of the moderate opposition, and particularly 
the Free Syria Army.
    I would like to clarify one point. The Free Syria Army is 
committed to fighting ISIL. I would like to request unanimous 
consent to place in the record a statement by General Bashir, 
the chief of staff of the supreme military command of the Free 
Syrian Army, in which he states that the Free Syrian Army is 
committed to fighting ISIL.
    I want to just quickly read part of his statement:

          ``As chief of staff of the supreme military command, 
        I hereby reaffirm the Free Syria Army's continued 
        commitment to removing the twin terrorists Bashar al-
        Assad and Abu Bakr Al-Baghdadi from Syrian soil. The 
        heroes of the Free Syrian Army have sacrificed 
        thousands of brave souls in the fight against the 
        imposter Islamic State over the past year. We fully 
        plan to continue this fight until Baghdadi's complete 
        and utter defeat. The Assad regime collaborates with 
        Islamic State and other terrorist groups like Hezbollah 
        that seek our extermination. We will be unable to 
        finish off Islamic State without also acting to stop 
        Assad's barbaric assaults.
          ``We call upon the world community, and the U.S. 
        Congress in particular, to fulfill the humanitarian 
        security responsibilities by providing the Free Syrian 
        Army with robust support to bring a Syria free from 
        terrorism in all its forms.''

So I would like to put that into the record, Mr. Chairman.
    As the FSA fights ISIL, we must remember that Assad remains 
a magnet for terrorists and foreign fighters. So there will be 
no stabilization of this conflict unless Assad is forced to 
stop his barbaric slaughter of his own people.
    So I would like to ask you, Mr. Secretary, for comments on 
what I just said, and to clarify what you meant by the United 
States deconflicting with the Assad regime. What do you expect 
our policy toward the Assad regime to be?
    And additionally, it appears that Assad's forces have 
encircled Aleppo, and that the moderate opposition is losing 
its ability to hold territory there. And knowing that Assad has 
employed a kneel or starve campaign, compelling his opposition 
to either surrender or die, and that Aleppo has symbolic 
importance as a rebel stronghold, what can the U.S. do to help 
prevent the starvation of the moderate opposition inside Aleppo 
and help them hold Aleppo?
    Secretary Kerry. Well, thank you, Congressman Engel.
    First of all, thank you for your leadership, and Chairman 
Royce, thank you for your leadership. You guys have been 
pushing on this, and you have been very articulate about the 
needs with respect to the Syrian opposition. And we appreciate 
that. And I appreciate the comments you just made.
    Indeed, the Syrian opposition is in the tens of thousands. 
I can't tell you precisely exactly how many. But sufficient 
that they are a legitimate force. And the principal political 
arm of the opposition is the Syrian Opposition Coalition, the 
political arm, which is a group of people who represent the 
various parts of it. The SOC includes representatives of the 
Free Syrian Army and when possible, they have been able to 
provide funding and supplies to the fighting forces.
    The fighting forces are a conglomerate of armed groups that 
were formed to defend local communities from regime attacks and 
it includes secular as well as some Islamists. But the Islamist 
elements are opposed to ISIL and al-Nusra.
    We have very specific numbers in certain movements, like 
the Hazzm movement, is about 4,000 fighters divided into 
certain divisions. There are regimist defectors who have come 
in who are also part of this effort.
    There are other groups, at least seven groups with 
somewhere between a couple of thousand and 4,000 fighters each. 
But that is not all of the moderate forces by any means. And 
what is important is all of these forces have a solid record of 
fighting ISIL. They have been fighting ISIL. They are fighting 
ISIL right now up around Aleppo and in other areas.
    In fact, they drove out ISIL from Idlib province. In Deir 
al-Zour, another area in the Damascus suburbs, they have been 
fighting. And the thinking is that without prompting from 
outside forces, without America coming in and saying we are 
helping to fight ISIL, they are fighting ISIL.
    So we believe that as this global coalition comes together, 
determined to take on ISIL, that the organizing principle of 
the region, which is success breeds success, you are going to 
begin to see more people say we are on the side of the 
moderates, we are going to be with the moderates. They will 
grow in strength. And we can begin, indeed, to isolate ISIL 
itself.
    Aleppo is still under siege, obviously. ISIL is trying to 
gain control of some border crossings. But helping those units 
right now around Aleppo actually could help us secure supply 
routes from Turkey and raise the moderate fighter morale in 
significant ways. The moderate opposition is also fighting al-
Nusra, especially in Idlib Province. And our sense, again, is 
that on occasion there has been a kind of tactical cooperation 
purely for sort of immediate purposes. But to our judgment and 
the judgment of our people, it has had no lasting kind of 
impact.
    So our feeling is, Congressman, that we have something to 
work with here. I am not telling you it is easy. I am not going 
to tell you that it will happen all overnight. But there is 
indeed the Syrian opposition, which you have been arguing for a 
number of years, which notwithstanding the absence of a full 
throated support structure has survived and continues to fight. 
And our judgment is they will now even moreso.
    Chairman Royce. Ileana Ros-Lehtinen is chair of the 
Subcommittee on the Middle East and North Africa.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman and 
ranking member.
    Welcome, Mr. Secretary.
    I have reservations about the President's plan to train and 
equip the so-called moderate Syrian rebels. The President 
doesn't have the will to do all that is necessary in Iraq and 
Syria. And the result is the half measure that we passed 
yesterday, which tells our enemies what we won't do. Does the 
President have this comprehensive plan to not only defeat ISIL 
but also other terrorist groups--you just referred to al-
Nusra--and remove Assad from power? Or do we no longer view 
Assad staying in power as an impediment?
    Ambassador Power said recently that there were 
discrepancies and omissions in Assad's declaration regarding 
the removal and destruction of his chemical weapons stockpile. 
Assad did not live up to his obligations, and ISIL may use 
these, if it gets access to these weapons. Does Assad still 
have hidden, undeclared poison gases and chemical weapons? We 
have already seen that ISIL seized a former chemical weapons 
depot in Iraq and it would be a nightmare scenario if it were 
to also get Assad's undeclared chemical weapons.
    Also, Mr. Secretary, reports suggest that ISIL fighters 
number in the 30,000 to 40,000 range, different reports. Given 
its sophistication and its force strength, how can we expect a 
few thousand Syrian rebels to fight against ISIL and Assad at 
the same time?
    We know that some of our top and former military leaders 
have said that a time may come when we may have to put boots on 
the ground to supplement the Kurds, the Iraqi forces, the so-
called moderate Syrian rebels. But this has been repeatedly 
rebuffed by the President. Our allies in the gulf need to make 
substantive investments for the coalition. Has any country 
pledged or indicated that should the need arise it will be 
willing to send its own troops on the ground in Syria?
    And lastly, a point on the misguided Iran nuclear deal, why 
the double standard with Syria and Iran? We have rightfully 
demanded that Syria dismantle, destroy, and remove its chemical 
weapons program, however imperfectly. But we are allowing Iran 
to keep its nuclear program infrastructure intact with 
enrichment capabilities and thousands of centrifuges spinning.
    Thank you, sir.
    Secretary Kerry. There is a lot of meat there, and I 
obviously can't get through all of it now, but I am happy to 
answer what we can in writing.
    Assad's legitimacy? No. There is no legitimacy. We still 
believe that there is no way that we would imagine the support 
for those who have been taking on Assad is simply not going to 
stop. And so there is only a political solution here. And we 
don't see how that has Assad with some long term future in 
Syria. Besides, even as they are willing to fight ISIL, the 
Syrian opposition is not going to stop continuing to fight 
Assad. So we recognize that reality.
    Secondly, with respect to poison gas, we actually 
accomplished something historic to many people's skepticism 
about its possibilities. And that is that all of the declared 
prohibited chemicals under the Convention have been removed and 
destroyed. All of them. That has never happened, particularly 
in a time of conflict, in any country in the world. And I am 
very proud of the effort made by the folks who are arriving 
today in Virginia on the Cape Ray Merchant Marine, and the Navy 
and the other folks who were all involved in helping to achieve 
that goal.
    Ms. Ros-Lehtinen. If I may, Mr. Secretary, so when Samantha 
Power says there are discrepancies and omissions----
    Secretary Kerry. I was just going to come to that. She is 
right. Those are declared materials. Chlorine is not a required 
declared material. And we also have some questions about a 
couple of other items. Those are being prosecuted or, you know, 
being pursued within the process.
    And indeed, we believe there is evidence of Assad's use of 
chlorine, which when you use it, despite it not being on the 
list, is prohibited under the Chemical Weapons Convention. So 
he is in violation of that agreement. And we believe, and we 
are proceeding to do things to----
    Ms. Ros-Lehtinen. Thank you, sir. And I have some written 
questions regarding Venezuela sanctions and security for Camp 
Liberty at another time.
    Secretary Kerry. Delighted. Thank you.
    Chairman Royce. Without objection.
    Mr. Faleomavaega of American Samoa, ranking member of the 
Asia Subcommittee.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Secretary, the ISIS organization has caught the 
international community off guard. What began as a movement in 
tribal lands and minor outlying provinces is now a worldwide 
threat. Only after two beheadings did President Obama announce 
his strategy to, and I quote, ``degrade and ultimately destroy 
the Islamic State organization.'' While I appreciate your 
presence here today, Mr. Secretary, I cannot underscore the 
importance of Congress's role in determining how the United 
States responds to this crisis.
    What we do and how we do it now is the main issue. We must 
act responsibly and swiftly. And we must have true and accurate 
facts and information so that we can assure the American people 
that our actions in the region are not only warranted, but 
just. We must act and get this thing correctly.
    You mentioned in your statement, Mr. Secretary, that ISIS 
has to be defeated. And you have also outlined some aspects of 
the administration's efforts to fulfill this problem. As 
veterans ourselves in the Vietnam war, are we looking at 
another Vietnam, Mr. Secretary, if we don't get this right?
    Secretary Kerry. No. Because we are not invading the 
country. We are not going to be getting in the middle of a 
civil war. We are going to be part of a coalition that is 
engaged in counterterrorism. This is a counterterrorist 
operation, not counterinsurgency, and certainly not engagement 
in a civil war.
    Mr. Faleomavaega. Is there a concern among the neighboring 
countries in the region about what is happening as far as the 
operations and what the crisis organization has done? My point 
is that are the Arab countries supportive of us and our efforts 
to address this serious issue?
    Secretary Kerry. Hugely. Hugely supportive. That is what 
the Jeddah conference is about. We had all of the members of 
the Gulf Cooperation Council there, together with Lebanon, and 
Jordan, Iraq, and Turkey.
    And they all joined in a major condemnation, unified, about 
ISIL and what it is doing. And look, without seeking it, we 
obviously all know that on the surface, though he doesn't have 
the ability or the will to do anything about it, Assad doesn't 
like them. And Iran doesn't like them. Russia doesn't like 
them. Russia, which is supporting Assad. So you have a 
confluence of obviously strange bed fellows, which doesn't 
promise cooperation, because we are not engaging in that, but 
all of them are opposed and I think people are clearly 
distinguishing between ISIL and other political issues of the 
region.
    Mr. Faleomavaega. You and I both know that rhetoric is very 
easy to come up with. Are they also committing resources to 
address this issue?
    Secretary Kerry. Yes. I am not going to run through them 
all now. But there are a lot of countries--40 countries have 
already sent in ammunition, provided money, engaged in 
humanitarian assistance. They are already engaged. We have a 
couple of nations that are already flying with us, though we 
haven't, obviously, you know, made major pronouncements about 
where the whole coalition is because we are still in the 
process, as I said earlier, of delineating who will do what, 
when, where, and how.
    Mr. Faleomavaega. As a wounded combat veteran, Mr. 
Secretary yourself, in the Vietnam war, I cannot think of a 
better person that really appreciates and understands the 
importance that when we send our men, soldiers and sailors, at 
the expense of their lives, that we need to make this thing 
right. And we don't need another Vietnam, in my opinion.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We go now to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Mr. Secretary, welcome.
    Secretary Kerry. Thank you.
    Mr. Smith. First of all, I want to thank you for your 
strong August 28 statement calling on Iran to release Saeed 
Abedini, Amir Hekmati, and to locate Robert Levinson. Perhaps 
you might want to tell us if there has been any response. But I 
do, and I know other members, are very grateful for that strong 
statement.
    Secondly, do the Leahy amendments, will they be vigorously 
applied to the vetting process?
    Secretary Kerry. Yes.
    Mr. Smith. Okay.
    And third, over a year ago I wrote an op-ed published in 
the Washington Post calling for the creation of a war crimes 
tribunal for Syria, the idea being that there needs to be 
accountability for all sides, regardless of whoever commits the 
atrocities, and it needs to be done and set up and established 
immediately.
    A resolution calling for the immediate establishment of the 
tribunal was passed by this committee and awaits floor action. 
I argued then, and I would argue now, that the ICC, which has 
already had a thumbs down by the Russians, is not up to the 
task.
    David Crane, who as you know was the chief prosecutor of 
the Sierra Leone War Crimes Tribunal, testified here and said 
that the ICC is not up to the task. It has had only one 
conviction in about a dozen years. And that was of a person 
committing atrocities in the Democratic Republic of Congo. But 
the idea behind a hybrid, or a, you know, tribunal like 
Yugoslavia and Sierra Leone and Rwanda, would be that all sides 
would be held to account.
    Milosevic, as we all know, died while his trial was going 
on. Mladic and Karadzic are currently under--you know, their 
trials are continuing. Nobody thought at the time that Charles 
Taylor would get 50 years, the former President of Liberia. And 
I will never forget that picture of him after the verdict was 
read, looking down. Here is the man who, as you know and I know 
and others, and we fought against him for so long, the 
atrocities that he committed in Liberia and Sierra Leone. He is 
in jail now for 50 years.
    This would be an accountability initiative. It needs to be 
stood up immediately. And I respectfully hope that the 
administration will do just that.
    I yield.
    Secretary Kerry. Well, let me begin, Congressman, first of 
all, you are tireless and persistent in your advocacy for these 
things. And we all respect that enormously, number one.
    Number two, every occasion that we get, even most recently 
in Geneva at the meeting in the context of the P5+1, we raise 
the issue of our folks who are being held. And I can't go into 
all of it here now except to tell you that we are actively 
pursuing some way of trying to see whether or not both 
countries' needs can't be met. As you can imagine, they have 
counter demands. And we are engaged in looking at that. But we 
are very much engaged. We have had various efforts for proof of 
life, we have had various discussions with other countries in 
the region. And this is very much on our minds. And the 
President will not rest when any American citizen is held like 
that and it remains unresolved.
    With respect to the tribunal, I personally, when I was in 
the Senate, I helped to work on the special U.N. tribunal that 
held the Khmer Rouge responsible for their atrocities. There is 
no question in my mind that what has happened in Syria, on a 
number of occasions the government has engaged in war crimes. 
And I think they need to be held accountable. And I very much 
support it.
    The President supports finding a mechanism that will do 
that. I don't know if we have made the same judgment that some 
have with respect to the inability of the current structure to 
do it. But we ought to try to resolve this one way or the 
other. It shouldn't be sitting in limbo. People need to know 
there is accountability. And one of the problems historically, 
as you know better than anybody, is the impunity that exists. 
If there is impunity in one country, in one area, one region, 
continent, or another, people tend to try to get away with 
things. It is the prosecution that acts as a deterrent, it is 
the accountability that stops it. And we will work with you to 
try to provide that.
    Chairman Royce. We go now to Mr. Sherman of California, 
ranking member of the Subcommittee on Terrorism, 
Nonproliferation, and Trade.
    Mr. Sherman. Mr. Secretary, I have got so much to cover, 
some of the questions you may want to respond to for the 
record.
    First, I want to commend the administration for its success 
in dealing with Assad's chemical weapons. As you have pointed 
out, you may be 90 percent successful, you may be 99 percent 
successful, but there was no other plan presented that would 
have freed the world from the risk posed by the vast majority 
of Assad's chemical weapons.
    I want to commend the chair and the ranking member for 
their opening statements, particularly the ranking member when 
he mentioned the Free Syria Act. I was happy to be an original 
cosponsor of that 1\1/2\ years ago. And the ranking member is 
correct, we need to write a new authorization to use military 
force and replace the ones we have now.
    Whether or not your air campaign, Mr. Secretary, is legally 
authorized, depends upon whether ISIS is part of al-Qaeda. That 
is a metaphysical question. They weren't in existence on 
September 11, 2001. Then they were formed. Then they joined al-
Qaeda. And then they left al-Qaeda. And now they are fighting 
al-Qaeda. I don't know if they are part of al-Qaeda or not. It 
is a metaphysical question. The solution is for Congress to 
write a statute that fits 2015 rather than see whether you can 
stretch a 2001 statute to fit a circumstance that was never 
anticipated.
    Mr. Secretary, the American people want a great plan. We 
want a guarantee of the immediate, total destruction of ISIS, 
without U.S. casualties. And the administration will be 
pilloried for not developing such a plan. I want to commend you 
for not giving in to the political pressure to promise what 
cannot be delivered.
    In your statement you said we would defeat ISIS. I know the 
President's words are eventually defeat ISIS. To listen to some 
pundits, you would think that not only do we have to totally 
and immediately destroy ISIS, but we have to do so without 
discussions with questionable allies. And the Middle East has 
almost no allies except questionable allies. The fact is that 
can be done if we are willing to put \1/2\ million troops on 
the ground the way--or at least several hundred thousand troops 
on the ground and incur the casualties that none of the pundits 
is willing to discuss.
    But it also ignores another situation. It is not just who 
you destroy, it is who you empower. And ISIS's most powerful 
opponents, at least most powerful today, are nearly as evil as 
ISIS, and perhaps more dangerous. Hezbollah, Iran, the 
extremist Shiite militias that Iran controls, Assad, al-Nusra, 
a division of al-Qaeda. These are the other powerful forces on 
the battlefield. And there is a lot of discussion about how 
ISIS members have passports that might allow them to conduct 
terrorist operations outside the Middle East.
    Hezbollah has killed hundreds of Americans in Lebanon. Iran 
and Hezbollah have killed hundreds of Americans in Iraq. And 
both have conducted terrorist activities on a variety of 
different continents. Mr. Secretary, the Middle East is a 
region of incredibly complex evil. Caution is not a vice and 
bravado is not a virtue.
    Maliki ignored us, didn't need us. Abadi needs us. I hope 
that one of the things you bring up with him is his 
international obligations to protect those who are living at 
Camp Liberty. Turkey is not fulfilling its responsibilities. 
And here I do have a question, believe it or not.
    One of the problems with Turkey is they are allowing this 
oil to be smuggled. The question is, and I don't want you to 
give away any secrets here but is there some reason why we 
haven't bombed those oil fields and refineries under ISIS 
control? This would deprive them of money from smuggling. It 
would deprive them of fuel for their own operations. It would 
also, unfortunately, deprive civilians under their control of 
fuel as well.
    During World War II we bombed oil fields and refineries 
even if that meant that enemy civilians couldn't get fuel. Do 
we have an objection to bombing these oil fields and refineries 
now?
    Secretary Kerry. I haven't heard any objection.
    Chairman Royce. Why don't we do this, Mr. Secretary.
    Why don't I suggest we respond in writing, because the 
gentleman used all of his time.
    Given that circumstance, we will go to Mr. Rohrabacher of 
California, chair of the Subcommittee on Europe, Eurasia, and 
Emerging Threats.
    Mr. Rohrabacher. Thank you.
    And first of all, let me express my appreciation to you 
personally, Mr. Secretary. You are working hard, you are doing 
your best for us. We may have some disagreements, but all of us 
should appreciate the hard work that you are putting out. And 
also the respect that you are showing the American people and 
Congress today by being here and opening yourself up to this 
type of very energetic questioning.
    So I will get to my energetic questioning. Let me 
understand. The proposal that I seem to be seeing here is that 
we support the Free Syrian Army, and we build them up, and 
although it does have some good elements, there is every 
indication that it is riddled with radical Islamic elements, 
terrorists, many of whom are more committed to fighting the 
regime, Assad's regime, than fighting ISIL. And Assad's regime, 
which of course means us no harm, but they themselves are 
engaged with fighting ISIL.
    In the end, it seems to me we are going to be basically 
providing weapons in order to undercut an enemy of ISIL, who is 
engaged deeply in fighting that radical Islamic terrorist 
element. Am I wrong in that? Am I missing something there?
    The dynamic that is created in the end, a big army that--
Assad's regime's armed forces that are a major part in the 
fight against ISIL are going to be undercut by what we are 
doing?
    Secretary Kerry. Regrettably, Congressman, no, we are not 
going to be undercut. Because if Assad's forces indeed do 
decide to focus on ISIL significantly, which they haven't been 
doing throughout this period--I mean there is evidence that 
Assad has played footsie with them. And he has used them as a 
tool of weakening the opposition. And therefore, never took on 
their headquarters, which were there and obvious, and other 
assets that they had. So we have no confidence that Assad is 
either capable of or willing to take on ISIL, number one.
    So we don't see a conflict in that process. Now, that may 
develop somewhat depending on how far they get. I think, with 
respect to the weapons and what is going to them, I am not 
going to sit here and tell you that the vetting process is a 
perfect process. But we have gained enormous expertise in the 
vetting over 20 years.
    Mr. Rohrabacher. Okay.
    Secretary Kerry. General Nagata----
    Mr. Rohrabacher. Mr. Secretary----
    Secretary Kerry. Let me just say perhaps you guys might 
invite him up here. I think it would be worth your hearing from 
him as to exactly how they vet, what they do. We have a lot of 
relationships with vetted moderate members.
    Mr. Rohrabacher. I think we have a poor track record in 
determining who our friends are in the past. And vetting, I 
will have to tell you, Mr. Secretary, the people we rely on for 
that vetting I don't have any confidence in whatsoever.
    Mr. Secretary, the administration inherited a big challenge 
in the Middle East. The Republican administration left this 
administration with big problems. And I think that this 
administration has turned a big challenge into a major crisis 
and one of the most significant factors in turning this into a 
crisis is this administration seems unable to go directly to 
America's best allies and support them, but instead find fault 
with them, and have basically overseen replacing good allies 
who were flawed with people who hate us, an expansion of the 
radical Islamic terrorist movement in that area. The people I 
know in that region who are the most loyal to us are the Kurds. 
And yet this administration insists on all of the supplies that 
were going to were a bulwark against these radicals. All the 
supplies have to go through Baghdad.
    Now, why are we marginalizing our best friends the Kurds 
and denying them the weapons they need--and they are really on 
the front line--in order to help the government in Baghdad, who 
by the way, I think still is allied with the mullah regime in 
Iran. And in fact here we are contacting the mullah regime to 
associate with us, but here Assad is a horrible alternative to 
deal with, but we can deal with the Iranian mullahs. I mean 
this is contradictory. It seems again our friends are getting 
short-changed because they are imperfect, and we end up helping 
our enemies.
    Secretary Kerry. Well, Congressman, there are two big 
points you raise there; and I want to take them both on.
    We could not be more engaged with our long-time, good 
friends throughout the region. I have probably made more trips 
as Secretary of State to the region and had more conversations 
in 1\1/2\ years than any former Secretary of State.
    We just came back from a meeting hosted by one of our 
foremost, most important, longest allies in the region, Saudi 
Arabia. There was unanimity at that meeting from all of the 
folks present, including some you might be referring to who 
don't have a record of being fully supportive of every effort 
all the time in that region. But that is not us. That is them.
    We have made it clear what our expectations are. And our 
expectations are that people stop funding Islamic radical 
groups--Islamic is the wrong word--radical religious 
extremists.
    Mr. Rohrabacher. Right. Okay.
    Secretary Kerry. We need to stop seeing them funded, and we 
need to start making sure there is a solid support stream and 
only that stream to the moderate opposition. So we are on the 
same page.
    Chairman Royce. We are going to go----
    Secretary Kerry. Now, you asked for this--this is 
important, Mr. Chairman, because maybe you can rectify it. You 
complain about--you say the administration is responsible for 
sending all these weapons through Baghdad. No, we are not. You 
are. We are adhering to U.S. law, passed by Congress with 
respect to export-import and exports and what we are allowed to 
do. We have to send it to the Government, because that is U.S. 
law. If you want to change it to fix it----
    Mr. Rohrabacher. That is why we should recognize the 
Kurdish Government, well, the sovereign power.
    Chairman Royce. The time has expired. But that particular 
point you raise about changing law is one that we could 
undertake and, given the frustrations of the Kurdish foreign 
minister, I think it is one we will undertake.
    We go now to Mr. Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for all the work that you 
have been doing.
    Yesterday I voted in support of the amendment that would 
authorize the training and equipping of appropriate vetted 
elements of the Syrian opposition. And I did so because I 
believe that we can't ignore the threat from ISIL and because, 
I believe, that the strategy that the President has proposed is 
probably the best option that is available to us at this time.
    But it wasn't an easy vote. It is a very--it was a very 
difficult vote. And I had to talk to a number of different 
individuals that reached out to Ambassadors and, of course, 
attended all of the classified meetings, et cetera, come away 
with what you said is absolutely key and essential that we have 
to have--this cannot be seen as the United States against Sunni 
Muslims.
    And so everybody being engaged in more than just words, but 
actually engaged in this fight, I think, is absolutely 
important.
    But one of the things that I came away with after the vote 
in talking to members on the floor and in talking all today, 
there were certain questions that came up. In fact, certain 
questions were asked here today; and you didn't have a chance 
to answer. So I thought that I would ask a couple of them, and 
then be quiet so you could have a chance to answer.
    One that continues to happen is the question of a slippery 
slope. And given that, I know that you understand this because 
of your service in Vietnam and your talk.
    So the question was: How will you assess if this war has 
gone wrong, if it is going wrong, and why we are not on a 
slippery slope and what is different this time? So I would like 
to know that.
    Then I think Mr. Engel and Mr. Sherman talked about the 
AUMF, and so I was wondering if--and I believe that you already 
have authority that you need, but many want to renew it. So 
could you or would you be helpful in language on a new AUMF, 
and are you willing to work with Congress on this matter?
    Secretary Kerry. Well, absolutely, Congressman. Thank you 
very much for both questions. They are very relevant. Very 
appropriate.
    On the slippery slope issue, I think it is ingrained in a 
lot of us through the past experience of the last 45, 50 years, 
in some cases, very personally, in other cases, through the 
experience here in the Congress and through our experience in 
the Middle East in the last few years.
    So we are all fairly warned. We understand the dangers. 
That is why the President is being so clear. And that is why 
the President is adamant about building this coalition with the 
real assumption of responsibility within the coalition, not a 
hold your coat, we will watch you while you do it, not a fig 
leaf kind of, you know, we will do a little bit, but a genuine 
coalition to tackle what is a genuine threat to every one of 
those countries more immediately in some ways than to us.
    Now, that has to happen. And we are going to be very 
disciplined and very tough about making that kind of 
assessment; and you are, too--and we know that--in conjunction 
with each other. So I think we will know fairly rapidly how 
things are coming together, how effective, what is effective. 
And we have got a really tough individual seasoned in 
leadership in these things in John Allen, who will help us make 
those judgments as we go along.
    On the AUMF, we welcome updating the AUMF. We are not 
trying to avoid that. It would be very good for everybody, I 
think. And so we welcome it. And, of course, we will work with 
you, very, very closely in an effort to do that. Chairman 
Menendez said yesterday that he is, in fact, already proceeding 
down that road; and we intend to work with him and with all of 
you in order to be effective. But we are convinced beyond any 
doubt that we do have the legal authority to proceed now.
    Would it be better to have something in 2014 that speaks to 
this particular situation rather than a 2001 AMF? Sure. But 
that is not where we are starting. And we need to get moving, 
and we have been very careful to make the judgments about 
authority here.
    One of the reasons, you know, that we couldn't move without 
coming to you before was because we didn't have authority, in 
our judgment, with respect to Syria and chemical weapons 
because that didn't fall under the 2001 AUMF. So we have 
clearly drawn that distinction and there is effort to stretch 
here.
    But we will be better, all of us, with Congress, the 
American people clear about where we are heading.
    Chairman Royce. We go to Mr. Chabot of Ohio, chairman of 
the Subcommittee on Asia.
    Mr. Chabot. Thank you, Mr. Chairman.
    And thank you for appearing this morning--this afternoon, 
Mr. Secretary.
    Like everybody in this room, I am sure I watched and, I 
think, a lot of people watched the President. Many, I think, 
were shocked when he emphasized that the Islamic State of Iraq 
and the Levant was, in fact, not Islamic. They now simply refer 
to themselves as the Islamic State. You know, they don't call 
themselves the Methodist state or Episcopalian state, or the 
Baptist state. They are the Islamic State and, I think, for 
good reasons.
    You know, when Christians, for example, are told to convert 
to Islam or die, that would seem to fly in the face of the 
President's insistence that the Islamic State is not the 
Islamic State, and an indication that he may not fully accept 
that radical Islam is, indeed, something that does exist and, 
in fact, is growing.
    Now, let me get to my question. The President has 
emphasized over and over again that there will be no American 
boots on the ground. Isn't that terminology misleading? We have 
already or soon will have 1,600 American military personnel 
back to Iraq. And I say ``back.'' I know that you emphasized 
earlier in your statement, we didn't want to rehash old things, 
but I think it would be remiss in saying if we didn't say that 
ISIL wouldn't have been as successful as it has that thus far 
in taking land and literally slaughtering so many people had 
the U.S. not pulled the troops out.
    When I have been to Iraq, every time that I was there, I 
think, everybody, our military personnel, the Iraqis, our 
diplomats, everybody anticipated that there would be a residual 
U.S. force there. And you talk about snatching defeat from the 
jaws of victory, I think that is exactly what happened here. 
But I digress.
    Back to the 1,600 U.S. military personnel and probably more 
that will be on the ground there. And I know that is for 
training and it is for intelligence purposes and it is for 
targeting our air power and so forth.
    But my question is: Is the administration really being 
straight with the American people when you keep emphasizing no 
boots on the ground? And isn't this 1,600 military personnel, 
at the present time, likely to go up and perhaps significantly?
    Secretary Kerry. Well, you raise two important things, and 
I would like to speak both of them quickly. And I will answer 
your question.
    The Islamic State, they call themselves obviously what they 
want to call themselves. We shouldn't compound the sin by 
allowing them to get away with it and calling them what they 
are not. They are not a state, and they do not represent Islam. 
And as I said earlier, now religious leaders, Islamic leaders 
are reclaiming legitimate Islam; and they are separating it, 
too. So I wouldn't compound the crime by calling them a state 
whatsoever.
    They are the enemy of Islam. That is what they are. And as 
the 21 clerics yesterday said in Saudi Arabia, they are, in 
fact, the order of Satan. And there is nothing in Islam that 
condones or suggests people should go out and rape women and 
sell off young girls or give them as gifts to jihadists and, 
you know, cut people's heads off and tie people's hands behind 
their backs and put them on their knees and shoot them in the 
head. These are war crimes, and they are crimes against 
humanity. And we need to make clear that that is exactly what 
is the reality here.
    Mr. Chabot. And not to interrupt you, Mr. Secretary.
    Secretary Kerry. Yeah.
    Mr. Chabot. And I agree with all the things you have said 
as far as the things they have done are horrific. No question 
about that. But it is clear to me that their motivation is 
their religious fervor, this fanaticism, however misguided it 
is. I mean, that is their motivation.
    Secretary Kerry. Well, I don't know. They use that. I don't 
know if that is in truth. It is part of it. The caliphate is 
certainly on the minds of many. But I think a lot of them are 
thugs and criminals and people who simply want to go out and 
maraud and vanquish and be opposed to modernity and a whole 
bunch of other things here.
    Mr. Chabot. I certainly agree with you there.
    Secretary Kerry. There is a lot of stuff going on there. 
With respect to troops and the President, the President has 
again and again said no combat troops. He just said it 
yesterday at CENTCOM very, very clearly.
    I think I have his statement somewhere--here is what he 
said: ``Will not have a combat--the troops that have deployed 
to Iraq do not and will not have a combat mission.''
    He has been absolutely up front about what they are going 
to be doing. They are going to be training and assisting, 
helping with intel, helping to build the capacity; but they 
will not have a combat role.
    And what is important with respect to what you said about 
the expectation of troops staying in Iraq, yes, there was an 
expectation; but we couldn't get the immunities and legal 
protection for them over the long term required for up to 
10,000 troops. And, therefore, they didn't stay. But no one 
makes the judgment that what happened in Mosul happened because 
noncombat troops weren't there. These guys weren't going to be 
combat troops.
    Chairman Royce. We are going to----
    Secretary Kerry. What happened in Mosul happened because 
the troops there had no stake in fighting for Mosul, and the 
officers abandoned their posts. They had a greater allegiance 
to one person or to one sect than they did to Iraq and that is 
the problem.
    Chairman Royce. We are going to go to Mr. Sires from New 
Jersey, ranking member of the Subcommittee on the Western 
Hemisphere.
    Mr. Sires. Thank you, Mr. Chairman.
    Secretary Kerry. Can I just say to the committee, I have 
just been given a note that says that President Hollande has 
announced that he has authorized for France to provide air 
strikes in Iraq in response to a request from the Government of 
Iraq. And we obviously welcome that public announcement. That 
is one of the countries that we have been counting in our list.
    Chairman Royce. Here here.
    Mr. Sires.
    Mr. Sires. Thank you.
    Mr. Secretary, thank you very much. I want to get back a 
little bit to the questions of the Kurds and see if we can get 
a little more detail. They have been playing such a strong role 
and such strong supporters of us. They have been basically 
holding the line, I guess, the Islamic State and providing 
Christians and other minorities with some safe haven.
    But yesterday we had dinner with one of the ministers, and 
one of his biggest complaints was that they don't seem to be 
working with the new Government of Baghdad. And the other one 
was that the arms that we are providing, it comes in in 
trickles; and they need the arms necessary to continue the 
push.
    Obviously, they have been our friends for many years. 
Obviously, we work with them. They have been loyal. I am just 
wondering if--I know it is going to take time, and I know you 
have a hard job putting all these groups together. But it would 
seem to me that this would be one of our priorities, to make 
sure that they have what they need to keep pushing ISIL back.
    So I was just wondering, can you talk a little bit about 
that?
    Secretary Kerry. I am delighted to talk a little bit about 
that. Look, I traveled to Erbil a few weeks ago, I think it was 
a few weeks ago, to meet with President Barzani and talk about 
the government formation and, also, about the steps that we 
would take.
    So let me make it clear that first of all, we conducted 
targeted air strikes to stop ISIL's advance on Erbil. The Kurds 
were courageous, but I will tell you ISIL was advancing rapidly 
and President Obama made the emergency decision and we went in 
and we stopped them advancing.
    Number 2, we immediately opened a joint operation center in 
Erbil to share information and intelligence at an unprecedented 
level.
    Number 3, we led an international effort to provide the 
Peshmerga with weapons and ammunition. And, at least, 39 
international flights have arrived in Erbil carrying arms for 
the KRG.
    The coalition, up to now, has provided 22 million rounds of 
ammunition, tens of thousands of small arms, heavy mortars, 
heavy crew-served machine guns, anti-aircraft, anti-vehicle 
machine guns, and RPGs.
    We have coordinated donors, like, Albania and Croatia with 
air transport providers, including U.K., Canada, Denmark, and 
Australia. And the President of the United States provided $25 
million in drawdown funds to support operations which directly 
supported the KRG's supply efforts.
    So I have to tell you, you know, I think some 17 flights of 
ours have gone in with these weapons and these arms. So we will 
continue. We are moving as fast as we can. And we are doing, I 
think, a pretty darn good job of getting weapons into the Kurds 
whom we have great respect for, the Peshmerga are a key 
component of this.
    Now, I am concerned about what you said about how they have 
a sense of not working closely enough with the government.
    Mr. Sires. Well, one of the reasons they said that is 
because they are not even getting paid.
    Secretary Kerry. Well, the government has just gotten 
going.
    One of the parts of the agreement of the government 
formation was that an immediate $1 billion would be paid, and 
it was, as the government came together. There is up to $4 
billion that is needed in order to pay back salaries. The next 
$1 billion is on its way. So I think that will be addressed 
because everybody understood that was part of the deal of the 
government coming together.
    Mr. Sires. Well, I think one of the concerns that they have 
is that we make these deals and then the Government of Baghdad 
does not keep up their end.
    Secretary Kerry. Let me tell you, if the Government of 
Baghdad does not keep up their end--and we have made this 
crystal clear to them--they are going to have trouble seeing 
the United States of America do the things they need to do.
    Mr. Sires. Okay. Thank you very much.
    Chairman Royce. Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here.
    Over the weekend, the President promised that, as we defeat 
ISIL, there will be no more mistakes. I look forward to working 
with you to avoid his mistake. The Obama mistake of 
underestimating ISIL as JV (junior varsity). Just 16 months 
ago, the President announced that the terrorist threat was 
being diminished; but at the same time, Dr. Fred Kagan of the 
American Enterprise Institute warned that they were growing 
safe havens of terrorists across North Africa, across the 
Middle East, and Central Asia.
    The Obama mistake of failing to secure a basic security 
agreement with Iraq, this undermines the achievements of the 
American allies forces in promoting freedom in Iraq. And I 
particularly identified two of my sons served in Iraq. And I am 
very grateful for their service.
    The Obama mistake of defense sequestration, downsizing the 
military as jihadists threats expand, allowing safe havens to 
attack American families worldwide.
    The Obama mistake of failing to support the students of 
Iran's green revolution. We should remember the Iranian 
revolution supporters in Tehran carried signs very clearly in 
English; and they state, ``Death to Israel. Death to America.''
    The Obama mistake of declaring a red line in Syria on 
chemical weapons and then blaming others. Clearly, the red line 
was stated first in a speech by the President on August 20, 
2012.
    The Obama mistake of releasing five murderous Taliban while 
negotiating with the terrorists. One of the terrorists was 
praised by the Taliban murders as the equivalent of 10,000 
warriors to destroy America. The detention facility at 
Guantanamo Bay is more important than ever.
    The Obama mistake of announcing an Afghan withdrawal date, 
disregarding conditions, putting Afghanistan and Pakistan at 
risk.
    The Obama mistake of equating Hamas rocket attacks with 
Israel's self-defense. We should recognize Hamas' creed, ``We 
value death more than you value life.''
    The Obama mistake of the Benghazi assassinations coverup. 
The Obama mistake of the Fort Hood massacre dismissed as 
workplace violence, and the Little Rock murderer as a drive-by 
shooting.
    The President obviously needs to change course and adopt 
peace through strength. We know weakness endangers American 
families worldwide.
    I believe the President should take action, remembering 
September 11th in the global war on terrorism.
    And I am pleased to hear and I join with Congressman Sires 
in regard to our concern for the Kurdish region. The Kurdish 
region has been loyal allies of America for decades. The people 
are very brave and capable; but I have heard, as he, that the 
necessary military supplies are not being delivered. They are 
putting the Kurdish people at great risk. And so, again, what 
steps are being made to certainly guarantee and make sure that 
the Kurdish region receives the necessary supplies to defend 
themselves?
    Secretary Kerry. I don't know where to begin, Congressman.
    I will tell you where I will begin: And thank you for your 
two sons. We really appreciate their enormous contribution to 
the country.
    And I obviously disagree with your judgment about mistakes, 
the red lines. We can have an argument about that, but I don't 
think it serves any great purpose here today.
    So what I will do is, we can answer you on the record on 
that. But I do say thank you for your sons' service. That is 
what makes America great.
    Mr. Wilson. And a restatement again of support for the 
Kurdish region and a commitment that we are going to follow 
through with weapons.
    Secretary Kerry. Well, as I said, we are deeply committed. 
The Kurds are essential partners in this. We have enormous 
respect for the courage they have already shown and the fight 
they have already taken to ISIL. And we are aiming for success, 
Congressman. Believe me, the President is deeply committed to 
this effort.
    The one thing I would say, after the list of mistakes, is, 
I honestly can't think of a President who has taken more risks 
and put more on the line to fight the continued struggle 
against terrorism, specifically, his efforts in Afghanistan, 
his efforts in Pakistan, his efforts in Yemen, his efforts in 
Mali, his efforts in Libya, I mean, you can run the list.
    Mr. Wilson. And, Mr. Secretary, one final question. Yes or 
no, is America at war?
    Secretary Kerry. Well, you know, I am going to answer that, 
Mr. Chairman. A lot of people are debating this idea of what do 
you call it. Do you call it war or don't you call it war?
    It is not a war like Iraq where we invaded and had hundreds 
of thousands of troops mobilized and 16,000 sorties and so 
forth. It is not that kind of war.
    But if you care about what you call it, it is a war similar 
to what we did with al-Qaeda and terror. And, sure, what I care 
about is not what we call it. I care about what we do, and I 
care about making sure we defeat ISIL.
    And if you are more comfortable calling it a war against 
this enemy of Islam, then, please do so. We are happy. We would 
call it that. And it is much more important to focus on how we 
are going to do it.
    Mr. Wilson. And action--you are correct.
    Chairman Royce. The time has expired.
    We are going to have to go to Gerry Connolly of Virginia.
    Mr. Connolly. You could say that with some enthusiasm, Mr. 
Chairman.
    I was listening carefully to my colleague from South 
Carolina, and I must respectfully take issue. What happened in 
Syria last year was a signal failure by this Congress. In a 
very rare event, a President of the United States came to 
Congress and said, ``Here is the problem, here is what I want 
to do about it, give me an authorization.''
    And what did we do? We dithered, we kvetched, we wrung our 
hands, we found all kinds of rationalizations for why we just 
couldn't bring ourselves to do it. And I think we damaged the 
United States' foreign policy, United States' standing, and our 
respectability as an institution. So if we are going to start 
finger pointing, let's start with ourselves.
    Having said that, Mr. Secretary, welcome back to Congress.
    Secretary Kerry. I was----
    Mr. Connolly. The fun never stops around here.
    Mr. Secretary, you bravely served your country. You won 
medals for your service in an undeclared war in Southeast Asia. 
And at that time we had two Presidents who used the Gulf of 
Tonkin resolution basically to engage in a massive ground war 
in mainland Asia. That was a fairly flimsy basis upon which to 
wage war, and all of us of that generation are cognizant of 
that.
    So I want to return--and I understand you are wearing a 
different hat today than you did when you were on the Senate 
Foreign Relations Committee. But we heard you say and we heard 
the President say, you welcome a congressional authorization. 
But, I guess, I would gently prod you. Don't you need it? Isn't 
it just as flimsy to cite a resolution for a different time, a 
different environment, a different challenge 13 years ago? And 
wouldn't it be better for our country, our allies, and for the 
mission we are undertaking to have a full-blown debate and to 
request that authorization as, I believe, the Constitution of 
the United States requires, but I know we are not going to 
agree. I want to give you an opportunity?
    Secretary Kerry. Well, thank you, Congressman. Thank you 
for your original comment.
    I think I said to you that, of course, it would be better 
to have an update. It would be better to have the Congress 
ratify and join in. It would be better to have the American 
people represented by the Congress through a good debate and 
what is happening, for sure. I haven't changed in all these 
years with respect to that.
    But it is not necessary for the President to begin the 
process that he is beginning.
    Mr. Connolly. Mr. Secretary, if I can interrupt, because we 
have limited time. And you said you think you have all the 
authorization you need from that resolution of 13 years ago, 
the authorization?
    Secretary Kerry. We are convinced. We have tested this very 
carefully with the lawyers and I have as good a set of lawyers 
as anywhere in the country and in the State Department and in 
the White House and they conclude, without any question, that 
ISIL began as al-Qaeda in Iraq. And the authorization clearly 
in 2005, 2006, 2007, 2008 referred to al-Qaeda in Iraq. Just 
standing up in 2013 a year ago and saying, ``Hey, we are no 
longer going to be part of this because we happen to be worse 
than them and they don't like us anymore'' doesn't get you out 
from under who you are and what you are trying to do and how 
you do it.
    And, therefore, yes, it is a span of years. It wasn't 
something that any of us foresaw. But it doesn't affect the 
legality of the fact that this still is the same group that was 
doing what they did in Iraq. They called itself al-Qaeda in 
Iraq, they were part of al-Qaeda in Iraq, and now they are 
continuing to do the same in both places, in Iraq and in Syria.
    We are convinced that the longstanding relationship they 
had with Bin Laden, the longstanding relationship with al-
Qaeda, the continued desire to attack the United States and 
U.S. Persons, two of whom they have already murdered, we have 
the authority without any question; and it referred to the 
affiliates by the way. The language of the resolution referred 
to al-Qaeda and its affiliates. There is no question that these 
guys were an affiliate or are an affiliate.
    So we are convinced we have it. But, yes, we are definitely 
stronger as a country, which is why the President came to 
Congress for the Syria authorization previously.
    Mr. Connolly. I thank you.
    Chairman Royce. To Mr. Mike McCaul of Texas, chairman of 
the Committee on Homeland Security.
    Mr. McCaul. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today. We have 
known about this threat for well over a year. It has been 
festering.
    I believe when the beheadings of the American journalists 
took place, it was a real wake-up call for the American people 
about the evil of ISIS or ISIL.
    Then we watched, I think, the President go through what I 
perceived a very tortured decision-making process, I think, in 
part, because it defies his narrative that he campaigned on 
that he was going to end these wars. And it defies his legacy 
as well.
    Having said that, I am glad that he finally came around on 
the issue, listened to General Dempsey, the chairman of the 
joint chiefs, that basically told him that we cannot defeat 
ISIS unless we go into Syria.
    We just heard today, and I had a briefing on the Australian 
plot that was thwarted, this is an external operation, coming 
out of Syria, involving the beheadings of Australians and then 
a potential attack on their FBI.
    As the chairman of Homeland Security, I don't want to see 
that happen in the United States; and I know nobody sitting 
here today wants to see that either. I would commend your pick 
of General Allen. I think that is probably one of the best 
decisions I have seen made.
    I also think and I have always said that the moderate 
Muslims' most effective weapon we have against the extremist 
radical Muslim. That appears to be the strategy here with the 
vetting process.
    Now, I have had my issues with the Syrian rebels in terms 
of throwing money and weapons without a proper vetting and 
training. I met with the Pentagon and was persuaded by the fact 
this is off-site in Saudi; that we do have the databases 
sufficient to properly train and vet them.
    But eventually what turned me around was the fact that we 
are going to train the moderate Sunni Muslim to combat the 
extreme Sunni Muslim, and it is their fight. And we can provide 
assistance and capabilities and air strikes, and we will have 
advisors, and we will probably have special forces. But at the 
end of the day, it is their backyard.
    And so my question to you is: When you met with these 
nations that, quite honestly, threw a lot of money 
indiscriminately that created this problem, it seems to me they 
ought to be fixing it as well.
    What are they willing to put on the table to assist this 
effort? And, specifically, are they willing to put a ground 
force? Because that is what is lacking in Syria. We have that 
in Iraq, but we don't have that in Syria.
    I am concerned that the number of 5,000, over a period of 6 
months, when you are looking at 30,000 ISIS forces and growing 
every day, whether that is going to be a realistic, achievable 
strategy without more assistance from these other Nations and, 
particularly, the Arab world that, I think, has some 
responsibility to bear the burden.
    Secretary Kerry. Well, Congressman, first of all, thank you 
for your leadership on Homeland Security and your service in 
there because that is key to our safety, obviously. And we 
appreciate that.
    I think it is unfair to confuse careful with ``tortured.'' 
I have watched the President ask a lot of tough questions that 
are appropriate and look for consequences that need to be 
analyzed prior to making a Presidential decision. And I think 
careful is what people want in a President.
    Secondly, the President has accepted General Dempsey's 
advice that you have to go into Syria, that you have to be able 
to impact Syria; and he said that to the Nation. And I advocate 
the same thing. I think you cannot attack ISIL only in Iraq. 
You just can't do it.
    If they go seek refuge in Syria and they have a safe haven 
there, that is directly contrary to the very policy we have 
pursued about not allowing sanctuary for al-Qaeda in Pakistan 
or elsewhere. So, you know, you can't contain. There is no 
containment with this group. There is no such thing as 
negotiation. There is nothing to negotiate. And I think 
everybody here understands that.
    So that requires a willingness to go get the job done. Now, 
in that context, you are absolutely correct that money came 
from places that it shouldn't have come to some of these groups 
and they morphed. And I think people would sit there in a 
moment of candor and tell you today that they acknowledge that. 
But that is part of what is giving us the unity of purpose to 
rectify that now. So I am very hopeful.
    You say ISIL is growing every day and there are only 5,000 
opposition fighters. You go get the classified numbers. But the 
classified numbers say to us there are tens of thousands of 
opposition fighters today. Not 5,000. Five thousand is what the 
initial training can produce. And if we are successful, if, you 
know, this enemy of Islam can get set back sufficiently, young 
people and possible recruits are going to have a different 
attitude about where they might want to be and with whom. And 
that could change very rapidly.
    So the numbers are something that could be in flux. I am 
not going to sit here and tell you with certainly it is only 
5,000. That is the target. But I can tell you that I don't 
think these guys are 10 feet tall. And the intelligence tells 
us that, as we have begun to hit them, we have been able to 
prove that to some degree.
    Chairman Royce. We go now to Mr. Ted Deutch of Florida, 
ranking member on the Subcommittee on Middle East and North 
Africa.
    Mr. Deutch. Thank you, Mr. Chairman.
    Thanks to you and the ranking member for ensuring this 
committee has an opportunity to discuss directly with the 
administration the U.S. strategy to the ISIL threat.
    Mr. Secretary, thank you for being here today. Before going 
into my questions about this topic, I want to join Mr. Smith in 
thanking you for your statements about the Americans who have 
been held in Iran.
    And, in particular, I would note that, as we approach the 
November deadline for nuclear talks with Iran, we will also be 
approaching yet another Thanksgiving that Bob Levinson will not 
be with his family. While I appreciate all of your efforts, I 
nevertheless want to continue to urge you to press the 
Iranians, as I know you do at every meeting, for any 
information on Mr. Levinson and urge them to show some humanity 
and some good faith by permitting Mr. Levinson to be reunited 
with his family.
    The administration has outlined a comprehensive strategy 
for combating the ISIL terrorist threat that encompasses, not 
just a targeted air campaign, but efforts to cut off ISIL's 
financial support, strengthen moderate forces in the ground in 
Syria.
    Mr. Secretary, you personally traveled to nearly every Arab 
state, securing the support of our partners in the region. You 
and the President have helped to build a strong international 
coalition, and I support your efforts. I commend you for them 
and I think we are grateful for them.
    I just wanted to follow up on Mr. Connolly's questioning 
with a couple of points. One, I would like to associate myself 
with his comments about the actions of this Congress a year 
ago. But I would also like to just to suggest that while 
yesterday's vote was about authorizing funding to support the 
Syrian opposition, we do need to have a broader debate about 
authorizing the use of military force. That is not what 
yesterday's vote was.
    And while you may be precisely right that the AUMF from 
2001 legally gives you the authority that is necessary, that 
there are an awful lot of us who weren't here to participate in 
that debate and who would like the opportunity, on behalf of 
our constituents, to engage in a debate about the type of force 
that should be used, can be used and, in fact, then ultimately, 
once that determination is made, to authorize it on behalf of 
Americans today for this purpose. So I hope that we have that 
opportunity and I think that is something that the 
administration should want and should request.
    Just shifting topics for a second. You were quoted in the 
press this week as saying that we are leaving channels of 
communication open with Iran. And I would like you to explain 
what exactly we are communicating to Iran, how much we know 
about Iran's support for the Shiite militias, whether Iranian 
forces are on the ground in Iraq and, finally, we are reminded 
that Iran continues to be the largest state sponsor of 
terrorism in the world; and that Iran with a nuclear weapon 
would not only empower its terrorist allies, like the Assad 
regime and Hezbollah, but it would spark an arm's race 
throughout the region that would be so damaging as extremist 
groups are marching throughout the Middle East.
    So given that there is less than 2 months from the November 
24th deadline for nuclear negotiations, if you could provide us 
with necessary assurances that our shared goal of destroying 
ISIL won't be used by Iran as a pretense for extending 
negotiations or for pressing the administration and our 
partners in those negotiations to accept anything less than an 
Iran that does not pose a threat in the region and to the 
world.
    Secretary Kerry. Let me state unequivocally, there is no 
connection, relationship, dependency between what we are 
currently about to be engaged in with respect to this, you 
know, so called ISIL and these talks. And there is a real 
discipline on both sides with respect to the focus on the 
talks.
    Now, everybody knows because we announced on the margins of 
the P5+1 talks that there was some inquiry about ISIL and the 
position of Iran and so forth. Iran is very opposed to ISIL, 
and it would be illogical, it would be almost diplomatic 
malpractice not to inquire, what their attitude is or what 
their attitude is about our engagement or whatever. That 
doesn't mean we are cooperating. We are not cooperating. There 
is no joint effort, but I think it is important. Diplomacy is 
communication, and mistakes are avoided by communicating.
    So there is no coordination, there is no change in our 
attitude, there is no shift in policy, there is no linkage. 
But, yes, there has been and we are open to anything that could 
help to solve this problem, we will listen to----
    Chairman Royce. Judge Ted Poe----
    Secretary Kerry [continuing]. Without compromising our 
values and our interests.
    Chairman Royce. We go to Judge Ted Poe of Texas, chairman 
of the Subcommittee on Terrorism, Nonproliferation, and Trade.
    Mr. Poe. Thank you, Mr. Secretary, for being here.
    The United States has made a commitment to protect ethnic 
and religious minorities who have been subject to ISIS in Iraq. 
The unarmed residents of Camp Liberty have been attacked, as 
you know, seven times, resulting in the murder of 100 
residents, wounding 1,000 others.
    Myself and 26 other Members of Congress have sent you a 
letter, asking you specifically what now will be done to 
protect those members of Camp Liberty. I would like for you to 
respond to the letter in writing as opposed to this hearing 
today.
    So I would like to move on to specifically what we are 
talking about with ISIS. The way I understand it, the United 
States' plan is to arm the people in Syria that have been 
vetted with the intent of, I suspect, defeating ISIS in Syria 
and, also, a strategy to defeat ISIS in Iraq at the same time.
    I'm concerned about that, because we armed the rebels or 
the opposition in Libya; and now that hasn't turned out so 
well. Libya, to me, is a failed state. I have a series of 
questions.
    You have made it clear that this is not Islamic philosophy. 
Tell me and the American people exactly who we are at war with. 
What would you call--I call them ISIS, Islamic State of Iraq 
and Syria.
    What would you tell the American people? Okay, we are doing 
this support, we are at war, we are counterterrorism operation, 
whatever you want to call it. Who is the enemy? Define the 
enemy for me. What would you call them?
    Secretary Kerry. Well, Congressman, let me say very 
quickly, I share your concern. The administration shares your 
concern about the Mujahedin-e Khalq who have been too long in 
Camp Liberty, and we recognize that. We have been able to work 
to get 384 residents out of there.
    Mr. Poe. Excuse me, Mr. Secretary. I would like you to 
respond to that question in writing because of the time limit.
    Secretary Kerry. Okay. Fine.
    Mr. Poe. You just go ahead and answer the question: Who are 
we at war with? I call them ISIS. Who would you call these?
    Secretary Kerry. Well, I call them the enemy of Islam, 
because that is what, I think, they are. And they certainly 
don't represent a state, even though they try to claim to.
    Mr. Poe. So officially we should refer to them as the enemy 
of Islam.
    Secretary Kerry. Well, I do.
    Mr. Poe. Okay.
    Secretary Kerry. I don't know if there is an official 
whatever.
    Mr. Poe. Well, why don't we tell the American people----
    Secretary Kerry. I hope you join me in doing that, because 
that is what I think they are; and I don't think they deserve 
to have a reference in their name that gives them legitimacy.
    Mr. Poe. Are they the enemy of the United States?
    Secretary Kerry. Beg your pardon?
    Mr. Poe. Are they the enemy of the United States?
    Secretary Kerry. They are an enemy of humanity.
    Mr. Poe. So they are an enemy of the U.S., too?
    Secretary Kerry. Among others.
    Mr. Poe. Okay.
    Secretary Kerry. Among many others----
    Mr. Poe. Well, I am just looking specifically at the 
national security interest of the United States.
    Secretary Kerry. Definitively, it is in the national 
security interest of our country, with Americans over there 
with passports, learning how to fight and taking part in this--
--
    Mr. Poe. And I agree with you, they shouldn't come back 
unless they are in handcuffs. I agree with that.
    Secretary Kerry. For all those reasons, yes.
    Mr. Poe. What is the long-term strategy? Is it to defeat 
this group, ISIS, if you don't mind me calling them that?
    Secretary Kerry. Yes. Yes, it is. You know, this is my best 
entreaty to call them something but that is all right.
    Mr. Poe. All right. But that is the long-term goal of the 
United States----
    Secretary Kerry. The long-term goal is to end their 
capacity to engage in acts of terror and terrorize to be a 
threat to the United States and others and to destabilize the 
region.
    Mr. Poe. Do you suspect that this--as long as it takes, is 
that really the position of the United States? However long it 
takes, we are going to defeat this group?
    Secretary Kerry. Well, the answer is, if your goal is to 
defeat them, you better be prepared to do it however long it 
takes. But that doesn't mean it is going to have to take 
forever. And I think if we put together the right coalition, if 
we all join together and support the right strategy and do the 
right things and follow through, I am confident that we can 
defeat ISIL.
    Mr. Poe. By any means necessary we are going to defeat 
them, or are we just going to defeat them with certain 
strategies----
    Secretary Kerry. Well, we have a strategy, and we think it 
can work. And we have other options within that strategy, if 
the first steps don't.
    Mr. Poe. But if the Syrian rebels aren't successful in 
defeating them on their own, we have contingency plans to 
follow up?
    Secretary Kerry. There are other options. We are not making 
those plans right now because we plan to defeat them the way we 
are going.
    Chairman Royce. We are going to go to Mr. Brian Higgins of 
New York.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your extraordinary work on 
behalf of America.
    You had indicated you characterize the Free Syrian Army as 
secular and moderate at the beginning of your statement. And 
although that certainly characterizes it as part of the story, 
I think there is a lot more to tell with respect to this 
organization.
    It is between 40,000 and 50,000 fighters. Their worst 
fighters, by most accounts, are those that secular and 
moderate. Their best fighters are Islamic extremists and al-
Qaeda affiliates. They are not unified. They lack an effective 
command structure. They have no political center.
    And the problem is, when you have 1,000 militias and no 
political center, there are only sides to pick. So I would have 
some concerns about our reliance on the Free Syrian Army to 
provide the ground troops strength to help us succeed in this 
mission.
    Obviously, we can't depend on the Iraqi army. The United 
States spent $25 billion to train and build a new army. The 
troop strength of the Iraqi army was estimated to be 250,000. 
And when ISIS moved on them, they ran.
    So my question is: You know, the Kurdish military up in 
Kurdistan, the Peshmerga, is estimated to be anywhere between 
80 and 190,000 fighters. They are regarded as pro-American. 
They are well equipped and well trained and experienced. They 
are reliable allies, as they assisted us in apprehending a Bin 
Laden ally in 2003. There is a stable political situation in 
Kurdistan. They recognize minority rights.
    Are we partnering with the right organization in that part 
of the world to achieve our objectives? And why wouldn't we try 
to engage, to a greater degree, the Peshmerga, given their 
history of reliance? So I would ask you that question.
    Secretary Kerry. Well, let me begin. A very good question, 
Congressman. I just begin by saying to you that the numbers 
that you put out with respect to the size of the opposition, we 
don't agree that those are the limit of the numbers, 
particularly when you include the more Islamic of those 
fighters and, particularly, when you include some of the bad 
guys in that grouping. We don't include those.
    When I tell you there are tens of thousands, I am not 
including al-Nusra and people that we are not going to have 
anything to do with and that we don't agree with, obviously. So 
our numbers are a little bit different from where you begin.
    Secondly, we are not relying, obviously, exclusively, on 
them. We are working with the Kurds. That is why you saw such a 
massive amount of support going into the Kurds, with the 
permission of the Government of Baghdad; and that is why they 
sort of bypassed and we went directly to them with their 
permission.
    So I think you need to recognize what is already happening. 
The Kurds indeed can be a critical partner in this effort.
    Mr. Higgins. Yield back.
    Chairman Royce. We go now to Matt Salmon of Arizona.
    Mr. Salmon. Thank you, Mr. Secretary, for coming to speak 
to this committee about this administration's plan to defeat 
ISIS.
    I do believe that it is unfortunate you couldn't come and 
answer our questions in advance of the House voting on the very 
issue; but I am pleased that, at least, we could get some of 
these questions answered today.
    My first question is: Just 5 weeks ago, the President said 
it was a fantasy that the Free Syrian Army could take up arms 
and lead the fight. Now, they are a cornerstone of our strategy 
to defeat ISIS.
    What has changed to make the Free Syrian Army now a 
credible partner where before the President considered them a 
punch line?
    Secretary Kerry. Well, what the President said, actually, 
that comment was made way back when. It came out recently; he 
was referring, when he made the comment, which was made way 
back when, he was referring back to the time originally when, 
in the last administration, people were talking in the very 
beginning about whether or not they should be armed and so 
forth. And he, as you know, had reservations about that at that 
time. And the reason is that, at that time, there was not the 
sense of structure and capacity and definition that there is 
today.
    So there has been a long road between what the President 
actually applied those comments to and what we are looking at 
today. We now have tens of thousands of people who are, by the 
way, the principal bulwark against ISIL in Syria today. They 
are the ones who drove them out of Idlib province. They are the 
ones who are taking them on in the Damascus suburbs. They are 
the ones who are fighting in Aleppo.
    So what has happened is, over time, a lot of people came to 
this fight, a lot of people gained experience. Some went off 
and joined the most radical groups, and you know, we are not 
working with them. But a lot of them chose to be part of the 
Free Syrian Army and to stay away from the more extreme and 
violent strain.
    So, yeah, it is complicated. There are divisions. You have 
to understand, the principal behind all these people coming to 
Syria is Assad. Assad is the magnet that is drawing all of 
these foreign fighters there.
    Mr. Salmon. And he is their top priority. I understand 
that.
    I just have one other question, and I am going to finish 
early and let somebody have a chance. But there have been 
allegations that the so-called moderates over in the region are 
the ones that sold our reporters to ISIL to have their heads 
cut off. Is there any intelligence that supports that?
    Secretary Kerry. Actually, there is intelligence that 
refutes it. That is an ISIL disinformation claim. And in fact, 
that never happened. It is, as I said, it is false information 
that was put out by ISIL itself.
    Mr. Salmon. Thank you.
    I will yield back.
    Chairman Royce. Thank you.
    We will go to Karen Bass of California, ranking member of 
the Africa Subcommittee.
    Ms. Bass. Thank you, Mr. Chairman.
    Like my colleague, Representative Meeks, I also took a very 
difficult vote last night and voted for the amendment because I 
didn't see another alternative.
    Some people that are unhappy with my vote believe that 
there is another approach and another strategy other than air 
strikes and arming the rebels. So I thought I would ask you two 
quick questions. Why isn't there a diplomatic or a political 
approach or strategy to address ISIL? And then what are the 
lessons learned from the NATO intervention in Libya? And how 
are the lessons being applied to today?
    Thank you.
    Secretary Kerry. Well, first of all, the United States of 
America has a firm policy, which I believe is the right policy, 
that we don't negotiate with terrorists. And I can't think of a 
group that is more defining of modern day terrorism than this 
group.
    Secondly, there is nothing that they want that you can 
negotiate about. They have decreed a caliphate, their life 
philosophy and pursuit at this moment is marauding, buying 
young women, selling them, raping people, killing them. Anybody 
who isn't them, you can be killed. They are avowed genocidists, 
and they went after whole groups of people defined only by not 
being them.
    If you were Yazidi, you would get killed; Shia, you would 
get killed; if you are Christian, you get killed. And they have 
made it clear. There is nothing to negotiate about, either you 
join Islam or you die. What is the negotiation?
    So that is pretty straightforward stuff.
    Ms. Bass. And the other question about the lessons learned 
from NATO intervention in Libya and how----
    Secretary Kerry. Well the lesson learned from NATO was it 
was absolutely the right--the President made the right decision 
to intervene because of what was going to happen in Benghazi. 
Regrettably, and the President would be the first to tell you 
this, in all countries that we are engaged and by the way, you 
know, certain countries had taken the lead on that, as you 
know, with respect to kinetic activity.
    We agreed to support and be supportive. And certain folks 
were tasked with the follow-up afterwards. The President would 
be the first to tell you that all Nations were insufficiently 
focused on the follow-up.
    And that is the biggest lesson of all. You cannot leave a 
vacuum. You have got to come in with sufficient capacity. And I 
don't think there was sufficient follow-up in Libya. And 
everybody would say that.
    Ms. Bass. Mr. Chairman, I yield my time.
    Chairman Royce. Okay. Well, we want to thank the Secretary 
for his time today.
    We have covered a lot of ground about the ISIL threat, both 
in terms of security and in terms of their threat to humanity. 
We are going to cover more in the weeks to come. And we will 
also want to continue to be in touch on other important issues 
in Iraq.
    Mr. Secretary, like the safety of those at Camp Ashraf. 
Many have lost their lives. We want to make certain as we 
continue this dialogue that the State Department takes 
concerted steps here in order to protect their security.
    For now we stand adjourned. I thank the members. The vote 
is on on the House floor.
    Secretary Kerry. Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Secretary.
    [Whereupon, at 1:33 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               
 Material submitted for the record by the Honorable Eliot L. Engel, a 
         Representative in Congress from the State of New York


                                 <all>

</pre></body></html>
